(""   '~      DEPARTMENT OF IlEALTH & IllJMAN SERVICES                                                   Office of
                                                                                                         Office of Inspector General
                                                                                                                             General

 '"".-:'l DEPARTMENT OF HEALTH & IlAN SERVICES

(""
 ,,,,<.-::2                                                                                              Washington, D.C. 20201
                                                                                                                     D.C. 20201





                                                      JUN
                                                      JUN 22 55 2009

                                                                 2009

      TO:               Charlene Frizzera
                        Acting Administrator
                        Centers for Medicare &
                                             & Medicaid Services


      FROM:
                   4~
                   4                   ~
                         oseph E. Vengrin
                        Deputy Inspector General for Audit Services


      SUBJECT: Ochsner Health Ochsner
      SUBJECT:                Plan of
 Health Plan of Louisiana's Adjusted Community
                                                      Louisiana's Adjusted Community Rate
                                                                                     Rate Proposal
                                                                                          Proposal
                              Modifications for Contract Year 2004 (A-06-06-00093)


      Attached       is an copy
      Attached is an advance advance
                                of our final reportof
                                          copy        our final
                                                   on Ochsner        report
                                                              Health Plan                                 Louisiana's (Ochsner)
                                                                          of 
 on Ochsner Health Plan of Louisiana's   (Ochsner)
      Adjusted Community Rate           Rate Proposal
                                                Proposal modifications
                                                               modifications for  for contract
                                                                                      contract year
                                                                                               year 2004.
                                                                                                    2004. We will issue this
      report to Humana, Inc. (Humana), which acquired Ochsner, within 5 business days.

                                   Drug, Improvement,
      The Medicare Prescription Drug,    Improvement, and and Modernization
                                                               Modernization Act
                                                                               Act of2003
                                                                                    of2003 (MMA)
      (P.L. No.  108-173)  (117 Stat. 2066)  increased  capitation payment  rates to  Medicare Advantage
      (P.L. No. 108-173) (117 Stat. 2066) increased capitation payment rates to Medicare         Advantage
      organizations (MAO)
                     (MAO) under Medicare
                                    Medicare Part C beginning
                                                       beginning March
                                                                   March 2004.
                                                                          2004. The Centers for Medicare
      & Medicaid Services (CMS) required MAOs to submit revised adjusted community rate
      &
      proposals (proposals) showing how they planned to use the increased payments and
      documentation supporting
      documentation    supporting changes
                                  changes ininthe
                                               theoriginal
                                                   originalfilings
                                                            fiings for
                                                                   for contract
                                                                       contract year
                                                                                year 2004.
                                                                                      2004. Ochsner
      submitted revised proposals that reflected an estimated increase in capitation payments totaling
             $41 million,
      about $41   milion, or
                          or $112.52
                             $112.52 per member per month (PMPM),
                                                                (PMPM), for
                                                                          for three
                                                                              three of
                                                                                     of its
                                                                                        its plans.
                                                                                            plans. Ochsner
                                                                                                   Ochsner
      proposed to use the additional funding to reduce premiums and cost sharing, enhance benefits,
      stabilize or enhance beneficiary access to providers, update cost projections, and correct a cost-
                                                                                                      cost­
      sharing error.

      Our objective was to determine whether Ochsner's
                                             Ochsner's proposed
                                                       proposed uses
                                                                uses of
                                                                     ofits
                                                                        its MMA
                                                                            MMA payment
                                                                                payment increase
                                                                                         increase
      were adequately supported and allowable under the MMA and CMS guidance.

      Ochsner's proposed uses of approximately  approximately $36$36 million
                                                                       million ofthe
                                                                               ofthe $41 milion estimated
                                                                                     $41 million  estimated MMA
                                                                                                             MMA
      payment increase in contract year 2004 for three plans were supported and allowable under the
      MMA.
      MMA. However,However,        Ochsner's
                   Ochsner's proposed uses of 
  proposed uses of $4,664,482 for plan number 006 were not
      allowable because, contrary to CMS instructions, these funds related to mandatory supplemental
      benefits. In
      benefits.      In addition,
                         addition, because
                                        because ofofaa clerical
                                                       clerical error,
                                                                error, Ochsner
                                                                        Ochsner overstated
                                                                                 overstated by
                                                                                            by an
                                                                                               an estimated
                                                                                                   estimated $94,901
                                                                                                              $94,901
      ($0.33     PMPM)        its  proposed     use ofthe   payment    increase to enhance benefits
      ($0.33 PMPM) its proposed use ofthe payment increase to enhance benefits for plan number       for plan number
      001.
Page 2 – Charlene Frizzera


We recommend that Ochsner follow CMS instructions and guidance when preparing future
proposals (now referred to as “bids”) and ensure that amounts included in the proposals are
allowable.

In written comments on our draft report, Humana did not agree that Ochsner’s proposed uses of
$4,664,482 of the MMA payment increase for mandatory supplemental benefits were
unallowable. Humana did not address our finding that Ochsner overstated proposed enhanced
benefits by $94,901. Because Humana believed that Ochsner followed CMS guidance in
preparing its revised proposal, Humana did not agree with our recommendation.

Humana did not provide any additional information that would cause us to change our findings
or recommendation. CMS guidance provided to MAOs as “MMA Questions and Answers”
stated: “The [increased capitation] payment received from CMS covers Medicare-covered and
additional benefits, but not mandatory supplemental or optional supplemental benefits.”
Accordingly, we maintain that Ochsner proposed using $4,664,482 of the MMA payment
increase for unallowable purposes.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Gordon L. Sato, Regional Inspector General for Audit Services, Region VI, at (214) 767-9206
or through e-mail at Gordon.Sato@oig.hhs.gov. Please refer to report number A-06-06-00093.


Attachment
.>f'7#
.;:;ø
t.~t            DEPARTMENT OF HEALTH & HUMAN SERVICES                                                Offce
                                                                                                     OfficeofofAudit
                                                                                                                AuditServices
                                                                                                                      Services
(J".l>rr..DEPARTMENT OF HEALTH & HU SERVICES
   a~       -------                                                                                                                      _


                                                                                                     Reon
                                                                                                     RegionVI
                                                                                                           VI
                                                    JUN 33002009
                                                    JUN      2009                                    i1100
                                                                                                       100 Conurce,
                                                                                                           Conunerce,Room
                                                                                                                      Room632
                                                                                                                           632
                                                                                                     Dalas.
                                                                                                     DaUas.TX
                                                                                                            TX 75242
                                                                                                                75242
                                                                         >.~>'
                                                                        'f'"     •


        Report Number: A-06-06-00093
        Report         A-06-06-00093

        Ms. Karen
        Ms. Karen Kline-Levine
                    Kline-Levine
        Chief
        Chief Internal Auditor
                       Auditor
        Humana   Health  Plan
        Humana Health Plan
                        Street
        500 West Main Street
        Louisville, Kentucky   40202
        Louisvile, Kentucky 40202

        Dear Ms. Kline-Levine:
                 Kline-Levine:

        Enclosed is the U.S. Department of Health and Human Services (HHS),
        Enclosed is the U.S. Deparment of 
                                                           (HHS), Office
                                                                                                             Office ofInspector
                                                                                                                    ofInspector
        General
        General (OIG),(OIG),     final report entitled
                       final report                  entitled     "Ochsner
                                                             "Ochsner Health Plan Health
                                                                                  of 
    Plan of Louisiana's Adjusted Community
                                                                                                                        Community
        Rate    Proposal       Modifications           for   Contract       Year    2004."
        Rate Proposal Modifications for Contract Year 2004." We will forward a copy of 
     We will forward a copy of this report
                                                                                                                            report to
                                                                                                                                   to
        the HHS action official   official noted on the       the following
                                                                    following page  page for
                                                                                         for review
                                                                                             review and
                                                                                                     and any
                                                                                                         anyaction
                                                                                                             actiondeemed
                                                                                                                    deemednecessary.
                                                                                                                             necessar.

        The HHS action official will make final determination
                                                     determination as
                                                                   as to actions
                                                                         actions taken on
                                                                                        on all
                                                                                           all matters
                                                                                               matters reported.
                                                                                                        reported.
        We request
            request that
                    that you
                         you respond
                              respond to
                                       to this
                                           this official
                                                offcial within 30 days from
                                                                        from the
                                                                              the date
                                                                                  date of
                                                                                       of this
                                                                                          this letter.
                                                                                               letter. Your
        response should present any comments or additional information that you believe may have a
        bearing on the final determination.

        Pursuant to
                  to the
                     the Freedom
                         Freedom ofInformation     Act, 55 U.S.C.
                                   ofInformation Act,      U.S.C. §§ 552,
                                                                       552, OIG
                                                                            OIG reports generally are made
        available to the public to
                  to the public to the extent that information   in  the report  is not subject to exemptions in
        the
        the Act. Accordingly, this report wil
            Act. Accordingly,              will be
                                                 beposted
                                                    posted on
                                                            on the
                                                                the Internet
                                                                     Internet at
                                                                              at http://oig.hhs.gov.
                                                                                  http://oig.hhs.gov.

        If you
           you have
               have any
                    any questions
                        questions or comments about this report, please do not hesitate to call me, or
        contact
        contact Cheryl Blackmon, Audit Manager,
                Cheryl Blackmon,        Manager, at (214)
                                                     (214) 767-9205
                                                           767-9205 or through
                                                                        through e-mail
                                                                                 e-mail at
        Chery1.Blackmon@oig.hhs.gov.    Please refer
        Cheryl.Blackmont$oig.hhs.gov. Please   refer to report number A-06-06-00093
                                                                       A-06-06-00093 in all
        correspondence.
        correspondence.

                                                           Sincerely,
                                                      i !:~Sincerely,
                                                            f/vJ ~
                                                     i   JJo'V,J~V, ~vJ ~
                                                                  Gordon L.
                                                                  Gordon  L. Sato
                                                                              Sato
                                                                  Regional Inspector
                                                                  Regional InspectorGeneral
                                                                                      General
                                                                    for Audit
                                                                   for  Audit Services
                                                                               Services


        Enclosure
        Enclosure
Page 2 – Ms. Karen Kline-Levine


Direct Reply to HHS Action Official:

Mr. Jonathan Blum
Acting Director
Center for Drug and Health Plan Choice
Centers for Medicare & Medicaid Services
200 Independence Avenue, SW.
Mail Stop C5-19-16
Washington, DC 20201
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    OCHSNER HEALTH PLAN
       OF LOUISIANA’S
  ADJUSTED COMMUNITY RATE
 PROPOSAL MODIFICATIONS FOR
     CONTRACT YEAR 2004




                    Daniel R. Levinson
                     Inspector General

                        June 2009
                      A-06-06-00093
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Balanced Budget Act of 1997 (P.L. No. 105-33) established Medicare Part C, which gave
beneficiaries the option of receiving Medicare benefits through private health insurers referred to
as “Medicare+Choice” organizations. These organizations assumed responsibility for providing
all Medicare-covered services, except hospice care, in return for a predetermined capitated
payment. The Medicare Prescription Drug, Improvement, and Modernization Act of 2003
(MMA) (P.L. No. 108-173) (117 Stat. 2066) revised Medicare Part C and changed the name of
the program from Medicare+Choice to Medicare Advantage.

Beneficiaries enrolled in Medicare Part C are eligible for two classes of benefits: basic and
supplemental. Basic benefits include all Medicare-covered services, except hospice services, as
well as additional benefits that are not covered under Medicare Part A or B. Supplemental
benefits may include mandatory or optional benefits that are not covered under Medicare Part A
or B. Beneficiaries may be required to pay an additional premium, as well as cost sharing, for
supplemental benefits.

The MMA increased capitation payment rates to Medicare Advantage organizations (MAO)
beginning March 2004. The Centers for Medicare & Medicaid Services (CMS) required MAOs
to submit revised adjusted community rate proposals (proposals) showing how they planned to
use the increased payments and documentation supporting changes in the original filings for
contract year 2004. Ochsner Health Plan of Louisiana (Ochsner) submitted revised proposals
that reflected an estimated increase in capitation payments totaling about $41 million, or $112.52
per member per month (PMPM), for three of its plans. Ochsner proposed to use the additional
funding to reduce premiums and cost sharing, enhance benefits, stabilize or enhance beneficiary
access to providers, update cost projections, and correct a cost-sharing error.

Humana, Inc. (Humana), acquired Ochsner on April 1, 2004.

OBJECTIVE

Our objective was to determine whether Ochsner’s proposed uses of its MMA payment increase
were adequately supported and allowable under the MMA and CMS guidance.

SUMMARY OF FINDINGS

Ochsner’s proposed uses of approximately $36 million of the $41 million estimated MMA
payment increase in contract year 2004 for three plans were supported and allowable under the
MMA. However, Ochsner’s proposed uses of $4,664,482 for plan number 006 were not
allowable because, contrary to CMS instructions, these funds related to mandatory supplemental
benefits:

   •   Ochsner proposed using $3,102,892 ($52 PMPM) of its estimated payment increase to
       reduce the mandatory supplemental benefits premium.



                                                 i
   •   Ochsner proposed using $899,839 ($15.08 PMPM) of its estimated payment increase to
       update the projected prescription drug costs in its original proposal. This update related
       to a mandatory supplemental benefit.

   •   Ochsner proposed using $661,751 ($11.09 PMPM) of its estimated payment increase to
       correct a cost-sharing error in its original proposal related to a mandatory supplemental
       benefit.

In addition, because of a clerical error, Ochsner overstated by an estimated $94,901 ($0.33
PMPM) its proposed use of the payment increase to enhance benefits for plan number 001.

RECOMMENDATION

We recommend that Ochsner follow CMS instructions and guidance when preparing future
proposals (now referred to as “bids”) and ensure that amounts included in the proposals are
allowable.

HUMANA COMMENTS

In written comments on our draft report, Humana did not agree that Ochsner’s proposed uses of
$4,664,482 of the MMA payment increase for mandatory supplemental benefits were
unallowable. Humana did not address our finding that Ochsner overstated proposed enhanced
benefits by $94,901. Because Humana believed that Ochsner followed CMS guidance in
preparing its revised proposal, Humana did not agree with our recommendation. Humana’s
comments, with the exception of the enclosures, are included as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Humana did not provide any additional information that would cause us to change our findings
or recommendation. CMS guidance provided to MAOs as “MMA Questions and Answers”
which CMS confirmed carried the same weight as CMS manual instructions, stated: “The
[increased capitation] payment received from CMS covers Medicare-covered and additional
benefits, but not mandatory supplemental or optional supplemental benefits.” Accordingly, we
maintain that Ochsner proposed using $4,664,482 of the MMA payment increase for unallowable
purposes. We modified our recommendation to encompass the need to comply with not only
instructions but also guidance on preparing proposals.




                                                ii
                                                 TABLE OF CONTENTS

                                                                                                                          Page

INTRODUCTION..............................................................................................................1

       BACKGROUND ........................................................................................................1
            Medicare Program........................................................................................1
            Proposal Requirements ................................................................................1
            Medicare Prescription Drug, Improvement, and Modernization Act
             Requirements .............................................................................................2
            Ochsner Health Plan of Louisiana ...............................................................2

       OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................2
             Objective ......................................................................................................2
             Scope............................................................................................................2
             Methodology ................................................................................................2

FINDINGS AND RECOMMENDATION.......................................................................3

       FEDERAL REQUIREMENTS...................................................................................3

       UNALLOWABLE PROPOSED USES OF
        MEDICARE PAYMENT INCREASE.....................................................................4
             Reduction of Mandatory Supplemental Benefits Premium .........................4
             Mandatory Supplemental Benefit Cost Update ...........................................4
             Correction of Mandatory Supplemental Benefit Cost-Sharing Error ..........5

       OVERSTATED BENEFIT ENHANCEMENT .........................................................5

       RECOMMENDATION ..............................................................................................5

       HUMANA COMMENTS...........................................................................................5

       OFFICE OF INSPECTOR GENERAL RESPONSE .................................................6

APPENDIX

       HUMANA COMMENTS




                                                                  iii
                                                 INTRODUCTION

BACKGROUND

Medicare Program

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance to people age 65 and over, people with permanent kidney failure, and people with
certain disabilities. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

The Balanced Budget Act of 1997 (P.L. No. 105-33) established Medicare Part C, which gave
beneficiaries the option of receiving Medicare benefits through private health insurers referred to
as “Medicare+Choice” organizations. These organizations assumed responsibility for providing
all Medicare-covered services, except hospice care, in return for a predetermined capitated
payment. The Medicare Prescription Drug, Improvement, and Modernization Act of 2003
(MMA) (P.L. No. 108-173) (117 Stat. 2066) revised Medicare Part C and changed the name of
the program from Medicare+Choice to Medicare Advantage.

Beneficiaries enrolled in Medicare Part C are eligible for two classes of benefits: basic and
supplemental. Basic benefits include all Medicare-covered services, except hospice services, as
well as additional benefits that are not covered under Medicare Part A or B. Supplemental
benefits may include mandatory or optional benefits that are not covered under Medicare Part A
or B. Beneficiaries may be required to pay an additional premium, as well as cost sharing, for
supplemental benefits.

Proposal Requirements

During our audit period, Medicare regulations (42 CFR § 422.310) required each participating
Medicare Advantage organization (MAO) to complete, for each plan that it offered, an adjusted
community rate proposal (proposal) 1 that contained specific information about benefits and cost
sharing. 2 MAOs were required to submit their proposals to CMS before the beginning of each
contract period.

CMS used the proposals to determine whether the estimated capitation payments paid to the
MAOs exceeded what the MAOs would charge in the commercial market for Medicare-covered
services, adjusted for the utilization patterns of the Medicare population. Pursuant to 42 CFR
§ 417.592(a)–(c), MAOs were required to use any such excess amounts to offer additional
benefits, accept capitation payment reductions, or contribute to a benefit stabilization fund
administered by CMS. The proposal process was designed to ensure that Medicare beneficiaries
were not overcharged for the benefit packages that MAOs offered.



1
    As of contract year 2006, bids replaced proposals (P.L. No. 108-173, 117 Stat. 2194 (Dec. 8, 2003)).
2
    MAOs were not required to submit proposals for medical savings account plans.


                                                            1
Medicare Prescription Drug, Improvement, and Modernization Act Requirements

The MMA increased capitation payment rates to MAOs beginning March 2004. CMS required
MAOs to submit revised proposals by January 30, 2004, and to include with their proposals a
cover letter summarizing how they planned to use the increased payments and documentation
supporting changes in the original filings.

Ochsner Health Plan of Louisiana

For contract year 2004, Ochsner Health Plan of Louisiana (Ochsner) submitted the required
revised proposals for contract number H1951, which comprised plan numbers 001, 005, 006, and
801. We reviewed plan numbers 001, 005, and 006, for which Ochsner received an estimated
MMA payment increase of about $41 million, or $112.52 per member per month (PMPM). The
total monthly membership in these three plans averaged 30,347 enrollees during contract year
2004.

Ochsner’s revised proposals stated that Ochsner would use the MMA payment increase to reduce
beneficiary premiums, reduce beneficiary cost sharing, enhance benefits, stabilize or enhance
beneficiary access to providers, update cost projections, and correct a cost-sharing error.

Humana, Inc. (Humana), acquired Ochsner on April 1, 2004. Humana was not involved in
preparing Ochsner’s revised proposals. Therefore, to address questions that arose during our
review, Humana relied on the actuary with whom Ochsner had contracted to prepare the revised
proposals. We refer to the auditee as “Ochsner” in this report.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Ochsner’s proposed uses of its MMA payment increase
were adequately supported and allowable under the MMA and CMS guidance.

Scope

Our review covered the estimated $41 million increase in contract year 2004 Medicare capitation
payments provided by the MMA for plan numbers 001, 005, and 006. Our objective did not
require us to review Ochsner’s overall internal control structure.

We conducted our fieldwork at Ochsner in Metairie, Louisiana.

Methodology

To accomplish our objective, we:

   •    interviewed Ochsner officials;




                                               2
       •   reviewed applicable Federal laws, regulations, and guidance;

       •   reviewed the cover letter that Ochsner submitted with its revised proposals;

       •   compared the initial proposals with the revised proposals to identify the modifications;

       •   reviewed supporting documentation for the proposed uses of the MMA payment increase;
           and

       •   reviewed supporting documentation for the actual uses of the MMA payment increase
           and verified that they were consistent with the proposed uses.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATION

Ochsner’s proposed uses of approximately $36 million of the $41 million estimated MMA
payment increase in contract year 2004 for three plans were supported and allowable under the
MMA. However, Ochsner’s proposed uses of $4,664,482 for plan number 006 were not
allowable because, contrary to CMS instructions, these funds related to mandatory supplemental
benefits:

       •   Ochsner proposed using $3,102,892 ($52 PMPM) of its estimated payment increase to
           reduce the mandatory supplemental benefits premium.

       •   Ochsner proposed using $899,839 ($15.08 PMPM) of its estimated payment increase to
           update the projected prescription drug costs in its original proposal. This update related
           to a mandatory supplemental benefit.

       •   Ochsner proposed using $661,751 ($11.09 PMPM) of its estimated payment increase to
           correct a cost-sharing error in its original proposal related to a mandatory supplemental
           benefit.

In addition, because of a clerical error, Ochsner overstated by an estimated $94,901 ($0.33
PMPM) its proposed use of the payment increase to enhance benefits for plan number 001.

FEDERAL REQUIREMENTS

Section 211(i) of the MMA applied section 604 of the Medicare, Medicaid, and State Children’s
Health Insurance Program Benefits Improvement and Protection Act of 2000 3 (P.L. No. 106-

3
    This Act is known as BIPA.


                                                    3
554-App. F) (114 Stat. 2763A-555) to the increased capitation payments, thereby limiting MAOs
to use MMA payment increases for the following purposes:

       •    reduce beneficiary premiums,

       •    reduce beneficiary cost sharing,

       •    enhance benefits,

       •    contribute to a benefit stabilization fund, or

       •    stabilize or enhance beneficiary access to providers.

Chapter 4 of CMS’s “Managed Care Manual” (the Manual) provides that mandatory
supplemental benefits are Medicare Advantage plan benefits that are not covered under Medicare
Part A or B but are available to anyone who enrolls in a Medicare Advantage plan offering
mandatory supplemental benefits. 4 Chapter 8 of the Manual states that mandatory supplemental
benefits are those that beneficiaries must purchase as a condition of plan enrollment and that
MAOs may charge enrollees premiums, cost sharing, or both for these benefits. The instructions
for revised proposals, which CMS provided to MAOs as “MMA Questions and Answers,”
stated: “The [increased capitation] payment received from CMS covers Medicare-covered and
additional benefits, but not mandatory supplemental or optional supplemental benefits.”

UNALLOWABLE PROPOSED USES OF MEDICARE PAYMENT INCREASE

Reduction of Mandatory Supplemental Benefits Premium

For plan number 006, Ochsner proposed using $3,102,892 ($52 PMPM) of the MMA payment
increase to reduce the premium for mandatory supplemental benefits. This reduction was not
allowable because the MMA payment increase could not be used for mandatory supplemental
benefits.

Mandatory Supplemental Benefit Cost Update

The cover letter of Ochsner’s revised proposal for plan number 006 stated that, since the original
2004 proposal was prepared, more recent information had become available to project the claim
costs for calendar years 2003 and 2004 and to measure the value of the change in the mandatory
supplemental prescription drug benefit from 2003 to 2004. This new information led Ochsner to
increase costs in the revised proposal by $899,839 ($15.08 PMPM).

Ochsner’s actuary said that the cost update was allowable under CMS’s “Instructions for the
DIMA [MMA] 2004 ACRP [proposal] Season” (the Instructions), which stated that MAOs could
update cost projections in their revised proposals. However, the Instructions did not contain any
explanation of the types of cost projections to which the increase could apply. CMS’s “MMA

4
    All references in this report to the Manual relate to the version that was in place during our audit period.


                                                               4
Questions and Answers” 5 specifically prohibited the use of increased capitation payments for
supplemental benefits. Accordingly, the MMA payment increase should not have been used to
fund the proposed cost update because it related to a mandatory supplemental benefit.

Correction of Mandatory Supplemental Benefit Cost-Sharing Error

The cover letter of Ochsner’s revised proposal for plan number 006 explained that the
beneficiary cost-sharing amounts originally submitted for one of its mandatory supplemental
benefits were incorrect because they exceeded the estimated cost of providing the benefit.
Ochsner proposed using $661,751 ($11.09 PMPM) of its MMA payment increase to correct this
error.

Ochsner’s actuary said that the correction was allowable based on the Instructions, which stated
that MAOs could correct errors in previously approved proposals. However, CMS’s “MMA
Questions and Answers” stated that the MMA payment increase did not cover supplemental
benefits. Although corrections were allowable, the proposed cost-sharing correction should not
have been funded by the MMA payment increase because the correction related to a mandatory
supplemental benefit.

OVERSTATED BENEFIT ENHANCEMENT

In the cover letter of its revised proposal for plan number 001, Ochsner indicated that it planned
to enhance certain benefits that were funded, in part, by beneficiary cost sharing. However,
Ochsner’s actuary did not reduce the cost of the enhanced benefits by the amount of related cost
sharing when calculating the amount that the MMA payment increase would cover. According
to an Ochsner official, the actuary made this clerical error when preparing the revised proposal.
As a result, Ochsner overstated the amount of the MMA payment increase to be used for
enhanced benefits by $94,901 ($0.33 PMPM).

RECOMMENDATION

We recommend that Ochsner follow CMS instructions and guidance when preparing future
proposals (now referred to as “bids”) to ensure that amounts included in the proposals are
allowable.

HUMANA COMMENTS

In written comments on our draft report, Humana did not agree that Ochsner’s proposed uses of
$4,664,482 of the MMA payment increase for mandatory supplemental benefits were
unallowable. Humana did not address our finding that Ochsner overstated proposed enhanced
benefits by $94,901.

With respect to mandatory supplemental benefits, Humana stated that the Instructions did not
preclude MAOs from reducing beneficiary premiums, updating costs and projections, or

5
We confirmed with CMS that the “MMA Questions and Answers” were released through the CMS Health Plan
Management System to providers and had the same weight as CMS manual instructions.


                                                   5
correcting errors identified in the original proposal. Because Humana believed that Ochsner
followed CMS guidance in preparing its revised proposal, Humana did not agree with our
recommendation.

Humana’s comments, with the exception of the enclosures, are included as the Appendix. We
did not include the enclosures because they contained proprietary information.

OFFICE OF INSPECTOR GENERAL RESPONSE

Humana did not provide any additional information that would cause us to change our findings
or recommendation. CMS guidance provided to MAOs as “MMA Questions and Answers”
which CMS confirmed carried the same weight as CMS manual instructions, stated: “The
[increased capitation] payment received from CMS covers Medicare-covered and additional
benefits, but not mandatory supplemental or optional supplemental benefits.” Accordingly, we
maintain that Ochsner proposed using $4,664,482 of the MMA payment increase for unallowable
purposes. We modified our recommendation to encompass the need to comply with not only
instructions but also guidance on preparing proposals.




                                               6
APPENDIX
APPENDIX
 Page 1 of 3
APPENDIX
 Page 2 of 3
APPENDIX
 Page 3 of 3
